<html>
<title> - TAKING CARE OF OUR VETERANS: WHAT IS THE DEPARTMENT OF VETERANS AFFAIRS DOING TO ELIMINATE THE CLAIMS BACKLOG?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
TAKING CARE OF OUR VETERANS: WHAT IS THE DEPARTMENT OF VETERANS AFFAIRS 
                 DOING TO ELIMINATE THE CLAIMS BACKLOG?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2012

                               __________

                           Serial No. 112-177

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
75-793                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2012....................................     1

                               WITNESSES

The Honorable Allison A. Hickey, Under Secretary for Benefits, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs, Accompanied by: Roger Baker, Assistant Secretary for 
  Information and Technology
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Gerald T. Manar, Deputy Director, National Veterans Service, 
  Veterans of Foreign Wars of The United States
    Oral Statement...............................................    25
    Written Statement............................................    27
Mr. Joseph A. Violante, National Legislative Director, Disabled 
  American Veterans
    Oral Statement...............................................    35
    Written Statement............................................    37

                                APPENDIX

The Honorable Jason Chaffetz, a Member of Congress from the State 
  of Utah, Prepared Statement....................................    65
Inspection of the VA Regional Office Phoenix, Arizona............    67
The Honorable Paul A. Gosar, a Member of Congress from the State 
  of Arizona, Full Statement for the Record......................    91
The Honorable Jeff Miller, Chairman, House Veterans' Affairs 
  Committee; The Honorable Jon Runyan, Chairman, Subcommittee on 
  Disability Assistance and Memorial Affairs, House Committee on 
  Veterans' Affairs, Statement for the Record....................    93
The Honorable Jason Chaffetz, Chairman, House Committee on 
  Oversight and Government Reform Subcommittee on National 
  Security, Homeland Defense, and Foreign Operations, Questions 
  for the Record.................................................    97


TAKING CARE OF OUR VETERANS: WHAT IS THE DEPARTMENT OF VETERANS AFFAIRS 
                 DOING TO ELIMINATE THE CLAIMS BACKLOG?

                              ----------                              


                        Wednesday, July 18, 2012

                   House of Representatives
       Subcommittee on National Security, Homeland 
                    Defense, and Foreign Operations
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2247, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee], presiding.
    Present: Representatives Chaffetz, Tierney, Welch, Braley, 
Quigley, Speier, Labrador, and Farenthold.
    Also present: Representative Issa.
    Staff Present: Thomas A. Alexander, Majority Senior 
Counsel; Alexia Ardolina, Majority Assistant Clerk; Robert 
Borden, Majority General Counsel; Linda Good, Majority Chief 
Clerk; Mitchell S. Kominsky, Majority Counsel; Mark D. Marin, 
Majority Director of Oversight; Sang H. Yi, Majority 
Professional Staff Member; Devon Hill, Minority Staff 
Assistant; Peter Kenny, Minority Counsel; Suzanne Owen, 
Minority Health Policy Advisor; Carlos Uriarte, Minority 
Counsel.
    Mr. Chaffetz. The Committee will come to order.
    I would like to begin this hearing by stating the Oversight 
Committee mission statement.
    We exist to secure two fundamental principles: first, 
Americans have the right to know that the money Washington 
takes from them is well spent. And second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights. Our solemn responsibility is to hold government 
accountable to taxpayers, because taxpayers have a right to 
know what they get from their government. We will work 
tirelessly in partnership with citizen watchdogs to deliver the 
facts to the American people and bring genuine reform to the 
Federal bureaucracy.
    This is the mission of the Oversight and Government Reform 
Committee.
    I would like to thank everybody for your attendance here 
today for this hearing that we have entitled, ``Taking Care of 
Our Veterans: What is the Department of Veterans Affairs Doing 
to Eliminate the Claims Backlog?''
    I would like to thank the member participation. Normally, I 
would give an opening statement, but in deference to our full 
Committee Chairman, Chairman Issa, we are going to allow him to 
give his opening statement at this time.
    Chairman Issa. I thank the Chairman, and I apologize that 
there are two subcommittees going on. But this is the one that 
I particularly wanted to make sure I attended.
    Forty-two years ago this November, I raised my right hand 
and became a soldier. I have no claim today before the Veterans 
Administration. But for those 42 years, soldiers, sailors and 
marines have served and need our support. It is unacceptable 
that the Federal Government is doing nothing but continuing to 
promise what they promised before. A hundred and eighty-eight 
days is the average processing time for a claim. It is 
unacceptable.
    More unacceptable is the fact that the error rate is 16 
percent and perhaps higher in some regions. Veterans who appeal 
the system face multiple years, 883 days, three years, in order 
to be adjudicated.
    The system was broken during the Vietnam War when I 
enlisted. The system has never been fixed.
    So today we are going to concentrate in this Committee on 
hearing what you are going to do, but understand, we have heard 
it before. Today you will be judged by what you say and what 
you do. You will no longer be allowed to come back again with 
promises of reforms a year away.
    Today I understand that you will be talking about getting 
better over the next year, perhaps talking about ways in which 
you have improved recently. In 1970, the system was paper, and 
the system failed veterans miserably. Today the system is 
computerized, but not harmonized. Today, the Veterans 
Administration continues to claim that they will get better, 
but they have not.
    It is my goal on this Committee to recognize that we will 
be going into a new Congress, that next year will be under the 
Chairman determined next year. But if I am the Chairman or if I 
can influence the Chairman, you will be back, you will be back 
every single year until you get it right. Our veterans deserve 
better. Our Camp Pendleton marines today are marines and 
corpsmen. But they are also veterans serving. And in the days 
and weeks to come, they will be going to Balboa Hospital, they 
will be going to the La Jolla Veterans facility, they will be 
making claims for the injuries they received in Afghanistan and 
Iraq and in training. They deserve that you get the system 
right, because they cannot wait to be served a year later. They 
need your help now.
    And Chairman, I want to personally thank you for allowing 
me to go first. I look forward to the entire transcript of this 
hearing. I yield back.
    Mr. Chaffetz. Thank you. I thank the Chairman and 
appreciate his participation here today.
    I now recognize the Ranking Member, the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I thank all the 
witnesses for being here today.
    Obviously, several years ago when I was first chairing the 
Subcommittee, we conducted the hearings at Walter Reed. Those 
hearings fortunately lead to a substantial improvement of the 
physical plant at Walter Reed and a number of other facilities 
like Walter Reed across the Country. It also led to sort of an 
ongoing effort for improvements, to hold the Department 
accountable and to try to bring everything to the highest level 
of program service for our returning warriors and for our 
veterans.
    The coordination between the Department of Defense 
disability determination system and that of the Veterans 
Administration was a problem then and it continues to be a 
problem obviously now, one that we have to work together to try 
and improve. I do appreciate Chairman Chaffetz' continued 
oversight of this whole process from beginning to end. And with 
this effort, we are told that the employees at the Veterans 
Affairs are doing their part, that they are processing more 
claims more quickly than ever before, and we have to recognize 
their efforts which are responsible for a substantial increase 
in the number of claims processed, from some 440,000 in the 
year 2000 to more than a million claims last year.
    But the wars in Afghanistan and Iraq have produced an even 
greater increase in the number of claims that are filed by 
veterans. Since 2008, the number of pending disability claims 
has grown 48 percent to 1.2 million claims. Nearly half of 
those are backlogged with hundreds of thousands of claims.
    Secretary Shinseki deserves some credit for his 
announcement that he has more than 40 initiatives to help VA 
process claims more quickly and more accurately in the future. 
An integral part of the Transformation Plan is the more than 
$500 million that were invested in a paperless veterans 
benefits management system which is to replace the VA's legacy 
and outdated paper systems. We are interested in hearing more 
about that, and its promise and how it is being implemented. If 
these initiatives are successful, the VA could cut in half the 
amount of time it takes to evaluate claims while achieving 98 
percent accuracy. That is a goal that this Committee ought to 
be inclined to continue its oversight in order to help the VA 
achieve that mission.
    I hope the Secretary is successful. With more than a 
million troops projected to leave service over the next five 
years, the VA certainly cannot afford to fail and it is going 
to be severely challenged. As claims are reopened, the existing 
files I understand are being scanned into the system. We need 
to follow along how that strategy is working and whether or not 
it is an adequate way to move forward as we try to remain 
vigilant across the board to oversee that we have consistent 
progress.
    So thank you, Chairman Chaffetz, for your continued 
oversight on that. Thank you to the witnesses for being here 
today to help bring us up to date on what is going on. I look 
forward to continuing the process where we work together to try 
to make sure that our veterans get the services and programs 
they deserve.
    Thank you.
    Mr. Chaffetz. Thank you.
    This is truly bipartisan in our approach. We are all 
concerned about the health and welfare of our veterans. We will 
continue vigilance. I think it is one of our duties and 
responsibilities.
    In the interest of time, I am going to submit my opening 
statement for the record.
    Mr. Chaffetz. But let me simply say, we have a problem. We 
need solutions. And I know that the Veterans Affairs Committee 
is looking deeply into this. We will continue to look into 
this. But we have problem. And it doesn't seem to be getting 
better, and thus the essence of the hearing today.
    Members will have seven days to submit opening statements 
for the record. We would now like to recognize our first and 
only panel. I will also note that there was an attempt here to 
have somebody additional sit on the panel. We notice these 
things in advance. We need to adhere to that. So the panel that 
we have here today, while I appreciate the desire to have 
somebody else join you at the table today, we just simply can't 
do that on the whim the day of the hearing. We like to notice 
these things in advance.
    So our witnesses today include the Honorable Allison 
Hickey, who is the Under Secretary for Benefits at the 
Department of Veterans Affairs; Mr. Gerald Manar, who is the 
Deputy Director of National Veterans Service for the Veterans 
of Foreign Wars; and Mr. Joseph Violante, who is the National 
Legislative Director for the Disabled American Veterans.
    Pursuant to Committee rules, all witnesses will be sworn in 
before they testify. If you would please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth?
    [Witnesses respond in the affirmative].
    Mr. Chaffetz. Thank you. You may be seated.
    Please let the record reflect that the witnesses have 
answered in the affirmative.
    In order to allow time for discussion and for member 
inquiry, we would appreciate it if you would reserve your 
verbal comments to five minutes. Your entire statement will be 
submitted for the record.
    At this time, we will now recognize the Under Secretary for 
five minutes.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE ALLISON A. HICKEY

    Ms. Hickey. Good morning, Chairman Chaffetz, Ranking Member 
Tierney, members of the Subcommittee. I am accompanied today by 
Mr. Roger Baker, the Assistant Secretary for Information and 
Technology.
    My testimony will focus on a comprehensive and integrated 
Transformation Plan which will ensure timely and accurate 
delivery of benefits and services to our veterans, their 
families and survivors. We are committed to ensuring veterans 
do not have to wait too long to get the benefits they have 
earned and deserve. A prolonged wait is unacceptable.
    We are implementing a robust plan to fix the problem. Our 
Transformation Plan is critical to achieving our goal of 
processing all claims in 125 days with 98 percent accuracy in 
2015. However, we are not waiting for 2015. We are already 
implementing our plan and have good early results. Our plan, 
our Transformation Plan, our new organizational model, our new 
processes, our new technologies will be implemented at 56 
regional offices, 16 of them by this September 30th, and all 
the remaining by the end of the calendar year next year.
    The claims backlog is a decades-old problem, and fixing it 
isn't easy. If you have ever walked into one of our regional 
offices, your regional offices, you have seen stacks and stacks 
of paper. No, we are not computerized yet. We are starting to 
get, right now, computerized with our new plan. Our task, our 
Transformation Plan is to eliminate this antiquated paper-bound 
process. It does not serve our veterans, who are frustrated by 
its lack of speed and transparency.
    We have an aggressive plan to ensure our veterans get the 
timely and accurate benefit decisions they need and have 
earned. VA completed a record 1 million claims per year the 
last two fiscal years. We are on target to complete another 
million this year. Yet the receipts continue to greatly 
outnumber the output, meaning we have more veterans making more 
claims.
    In 2009, we completed 900,000 claims, while a million came 
in. In 2010 we completed a million claims, which was 
unprecedented in history. But we received another 1.2 million 
claims.
    In 2011 we completed another million claims, while at the 
same time allocating 37 percent of our rating staff across the 
Nation to process those most important Vietnam veteran Agent 
Orange claims. We provided benefits to over 132,000 Vietnam 
veterans and their survivors in the last two years that did not 
get it over the last 50. Still, 1.3 million claims came in the 
door.
    Given the anticipated continued high level of claims, it is 
absolutely clear to us that continuing our legacy paper-bound 
process will not eliminate the backlog. We have an aggressive 
plan that builds a strong foundation for a paperless, digital 
disability claim system, a lasting solution that will transform 
how we operate and eliminate the backlog. Our plan will ensure 
we achieve the Secretary's goal and this agency's priority goal 
of completion in 125 days, all claims, at a 98 percent accuracy 
level in 2015, delivering faster, better decisions for 
veterans.
    We are retraining, reorganizing, streamlining processes and 
implementing technology solutions that are positively 
implementing veterans today. Here are some highlights. We are 
redeploying 1,200 of our most experienced raters who are doing 
those Agent Orange claims to target and tackle the backlog now. 
These employees will complete 100,000 backlogged claims by the 
end of this year.
    We have improved and are expanding training practices to 
make staff better equipped to handle today's difficult cases. 
We call it challenge training, and it works. New staff have 
already received this design training, are completing two and a 
half times more claims per day with more than 30 percent 
increase in their accuracy quality levels. By the end of July 
we will have put 16 regional offices into our new operating 
model, changing the way we are organized to do this work. This 
model with segmented lanes lets us organize that work into 
three distinct lanes. One, focus on special emphasis of at-risk 
veterans, another, doing those easier to do one to two 
contention express claims. Once fully implemented, we will have 
all our offices in this by 2013, 16 by the end of this year. 
That will give us an additional 200,000 claims we can do per 
year.
    Also working closely with DOD to ensure seamless transition 
for our separating service members. In 2012 alone, we reduced, 
during this Administration, the days from a 260 day average to 
a 56 day average this year for more than 10,000 or over half of 
those claims.
    We are ensuring that service members receive access to 
benefits, eBenefits. We have had an increase of 500 percent 
accounts, more than 1.7 million service members and veterans 
are on eBenefits today, getting the information they need on 
their claim, to file a claim, to download numbers of letters as 
well. We are ending our reliance on paper-based claims and 
rolling out the new paper-based system, DBMS, which is already 
deployed, already deployed in four regional offices, 
Providence, Rhode Island, in your city, Chairman, of Salt Lake 
City, Utah, Fort Harrison, Montana and Wichita, Kansas. And it 
works. In pilot programs, the new system has cut the average 
time to process a claim to 119 days, well below the 125 mark in 
2015. Twelve more offices are on it by 30 September this year, 
all 56 by the end of 2013.
    The bottom line, Chairman, members of this Committee, we 
must deliver timely, first-rate benefit services with greater 
efficiency and effectiveness than we do today. We cannot do it 
by using old tools and processes that we have been using up to 
this point. We are implementing that plan today.
    Mr. Chairman, that concludes my statement. I am pleased to 
answer any questions you or members of the Subcommittee have.
    [Prepared statement of Ms. Hickey follows:]

    [GRAPHIC] [TIFF OMITTED] T5793.003
    
    [GRAPHIC] [TIFF OMITTED] T5793.004
    
    [GRAPHIC] [TIFF OMITTED] T5793.005
    
    [GRAPHIC] [TIFF OMITTED] T5793.006
    
    [GRAPHIC] [TIFF OMITTED] T5793.007
    
    [GRAPHIC] [TIFF OMITTED] T5793.008
    
    [GRAPHIC] [TIFF OMITTED] T5793.009
    
    [GRAPHIC] [TIFF OMITTED] T5793.010
    
    [GRAPHIC] [TIFF OMITTED] T5793.011
    
    [GRAPHIC] [TIFF OMITTED] T5793.012
    
    [GRAPHIC] [TIFF OMITTED] T5793.013
    
    [GRAPHIC] [TIFF OMITTED] T5793.014
    
    [GRAPHIC] [TIFF OMITTED] T5793.015
    
    [GRAPHIC] [TIFF OMITTED] T5793.016
    
    [GRAPHIC] [TIFF OMITTED] T5793.017
    
    [GRAPHIC] [TIFF OMITTED] T5793.018
    
    [GRAPHIC] [TIFF OMITTED] T5793.019
    
    [GRAPHIC] [TIFF OMITTED] T5793.020
    
    Mr. Chaffetz. Thank you.
    We will now go to Mr. Manar. You are recognized for five 
minutes.

                  STATEMENT OF GERALD T. MANAR

    Mr. Manar. Thank you.
    On behalf of the more than 2 million members of the 
Veterans of Foreign Wars of the United States, and our 
auxiliaries, I would like to thank you for the opportunity to 
testify today on the VBA claims transformation process.
    Edmund Burke wrote that those who do not know history is 
destined to repeat it. It is for that reason that we discuss at 
length in our written testimony the historical events which 
greatly influenced and contributed to the over 2 million 
pending claims, adjudicative actions and appeals that make up 
the VBA workload today. Congressional inaction, institutional 
practices within VA, leadership lapses, managerial ineptness, 
legislative initiatives, administrative actions, court 
decisions by the score and economic hard times have all come 
together in the last two decades to create this workload.
    Let's talk about solutions to this problem. First, there is 
no magic bullet. There is no one solution which will suddenly 
allow VBA employees to make quality decisions in a timely 
manner. VA has tried many times with many ideas in the last few 
years. It is important to distinguish marginal programs from 
potential game-changers.
    We should recognize that VBA has yet to determine what is 
the optimal claims processing system for today. It has 
experimented with case management in several offices. While 
processing time improved, this model proved to be resource-
intensive. Lean claims processing pioneered in Little Rock 
improved work flow within the regional office and provided 
opportunities for continuous learning. However, only marginal 
improvements were shown over time.
    Just one week ago, the VA trumpeted the creation of 
specialized teams, or lanes, for processing the bulk of claims 
within select regional offices. While some cases may be decided 
more quickly, we are aware of nothing in this initiative which 
will ensure higher quality decisions and significant 
improvements in timeliness. These initiatives address certain 
problems and produce some results. However, none, in our view, 
are expected to have a significant impact on either quality or 
production.
    The simplified notification letter program is designed to 
allow rating specialists to work more rapidly, and it does. 
Despite changes directed by General Hickey, our recent reviews 
of decisions made under the SNL program show a failure to fully 
comply with VA directives. VA is required by law to provide 
veterans with the reasons and bases for the decisions made in 
their cases. While the SNL program provides generic reasons for 
decisions, these are not adequate to meet the requirements of 
the law. As a result, we have renewed our opposition to the SNL 
initiative until full compliance with the law is achieved.
    VBMS is the VBA's foundation for a 21st century claims 
processing system. It is intended to be sufficiently flexible 
to allow the addition of programs, both now and in the future. 
VBMS is designed to facilitate the creation of efficiency. 
However, we do not expect significant improvements in claims 
processing timeliness or quality immediately following 
deployment. If history is any guide, VBMS will actually slow 
claims processing during the first six months following 
deployment as software problems are identified and fixed.
    VBA has stated that VBMS will be rolled out to 12 more 
regional offices by September. We strongly urge VBA to fix 
known problems before rolling VBMS out to additional offices.
    Many problems continue to slow development of this massive 
undertaking. It was only last week that VBA met with service 
organizations subject matter experts for two days to define the 
SNL requirements for access to VBMS. A significant number of 
problems must be resolved so that our service offices can fully 
access records in VBMS, so that we can represent veterans 
before VA. These are not new problems. VFW service officers in 
three VBMS offices still cannot access veteran records 
processed in VBMS.
    There can be no misunderstanding. VBA must see this through 
to conclusion. VA has no alternatives, no fallback position. It 
must succeed in creating a fully functioning, veteran-centric, 
interactive, user friendly and highly agile claims processing 
system. Failure to do this will have dire consequences for the 
future of VBA and veterans benefit programs.
    Further, VBMS should not be deployed without full and 
complete access by VSOs to all records of veterans and other 
claimants for whom we hold the power of attorney. Failure to 
provide full and complete access at any point in this process 
means that veterans are denied due process and are deprived of 
the representation allowed by law.
    We believe that VBMS has the potential to be the game 
changer, but only if it is done right and only if VBA creates 
the best work process that works in this totally new electronic 
environment. This must be done in tandem to take advantage of 
the potential efficiencies and capabilities of this new 
information technology.
    We have worked closely with General Hickey to address our 
concerns. We have great respect for her leadership and vision 
for VBA. We will continue to working with VA to resolve 
problems that arise so that veterans, their families and 
survivors receive correct decisions in a timely manner from VA.
    Mr. Chairman, thank you for the opportunity to provide 
testimony this morning. I will be pleased to answer any 
questions you may have.
    [Prepared statement of Mr. Manar follows:]

    [GRAPHIC] [TIFF OMITTED] T5793.021
    
    [GRAPHIC] [TIFF OMITTED] T5793.022
    
    [GRAPHIC] [TIFF OMITTED] T5793.023
    
    [GRAPHIC] [TIFF OMITTED] T5793.024
    
    [GRAPHIC] [TIFF OMITTED] T5793.025
    
    [GRAPHIC] [TIFF OMITTED] T5793.026
    
    [GRAPHIC] [TIFF OMITTED] T5793.027
    
    [GRAPHIC] [TIFF OMITTED] T5793.028
    
    Mr. Chaffetz. Thank you. I appreciate it.
    We will now recognize for five minutes Mr. Violante.

                STATEMENT OF JOSEPH A. VIOLANTE

    Mr. Violante. Thank you, Mr. Chairman and members of the 
Subcommittee. On behalf of the Disabled American Veterans and 
our 1.2 million members, thank you for this opportunity to 
present testimony about the VA claims processing system.
    DAV has the Nation's largest service program which last 
year provided free representation to nearly a quarter million 
veterans and their families, assisting them in obtaining over 
$4 billion in new and retroactive benefits to which they were 
entitled. By helping veterans file more complete and accurate 
applications for benefits, DAV and other VSOs also aid VA by 
reducing their workload and helping them reach the right 
decisions for veterans.
    Mr. Chairman, the problems plaguing the VA claims 
processing system are well-known. The number of claims filed 
each year is growing. The complexity of claims filed is 
increasing. The backlog of claims pending is staggering and the 
quality of claims decisions remains far too low. These problems 
did not arise over the past year or the past four years, or for 
that matter, over the past ten years. Nor will they disappear 
this year or next.
    Earlier this year, the Veterans Benefits Administration 
began rolling out its new operating model and technology 
solution to regional offices. But it is far too soon to make 
judgments about whether they are or will be successful. 
Although Congress must continue to play an important role in 
holding VBA accountable through aggressive oversight such as 
today's hearing, VBA must be allowed to complete this 
transformation process.
    For two years, Secretary Shinseki has focused on achieving 
the ambitious goal of having zero claims pending more than 125 
days, and all claims completed to 98 percent accuracy 
standards. While the elimination of the backlog will be a 
welcome milestone, we must remember, eliminating the backlog is 
not the same goal as transforming the claims process system. 
Nor does it guarantee that veterans are better served. The 
backlog is a symptom, not the root cause.
    In order to achieve real and lasting success, VBA must 
instead remain focused on creating a claims process system that 
is carefully designed to get each claim done right the first 
time.
    One of the most positive developments in recent years has 
been the open and candid attitude of VBA's leadership, 
particularly Under Secretary Hickey, toward developing a true 
partnership with DAV and other VSOs who assist veterans in 
filing claims. Although she has only been in her position for a 
little over a year, we have been impressed with her leadership 
style that is shaking up entrenched bureaucrats who have long 
resisted change.
    Mr. Chairman, regardless of the new process or technologies 
employed, we firmly believe that the key to success in helping 
veterans receive timely and accurate decisions on benefit 
claims and ultimately the key to VA's success is building a 
culture focused on quality and accountability. That begins with 
an unwavering commitment to education and training.
    DAV continues to recommend that VBA significantly increase 
the hours devoted to annual training and that all employees, 
coaches and managers undergo regular testing to measure job 
skills and knowledge as well as the effectiveness of the 
training. Perhaps the most critical element to the success of 
VBA's transformation strategy is new technology, especially 
VBMS system, which is being rolled out nationally with full 
deployment scheduled for the end of 2013. We have been pleased 
with VBA's efforts to incorporate the experience and 
perspective of our organization through VBMS development 
process, and we continue to work with VA to help ensure that 
all the capabilities needed to do the job ahead.
    One major concern we have is their use of the simplified 
notification letters, or SNLs, which provide automated and 
simplified rating decisions and notification letters. Many of 
the SNLs we have reviewed contain so little information and 
explanation that even an experienced DAV NSO has difficulty 
determining if the rating decision was correct. While we want 
automation and rules-based decisions, support has to be a 
central part of the new claims process. VBA must not use 
technology to increase productivity at the cost of accuracy and 
quality.
    Thank you, Mr. Chairman. That ends my statement. I would be 
more than happy to answer any questions.
    [Prepared statement of Mr. Violante follows:]

    [GRAPHIC] [TIFF OMITTED] T5793.029
    
    [GRAPHIC] [TIFF OMITTED] T5793.030
    
    [GRAPHIC] [TIFF OMITTED] T5793.031
    
    [GRAPHIC] [TIFF OMITTED] T5793.032
    
    [GRAPHIC] [TIFF OMITTED] T5793.033
    
    [GRAPHIC] [TIFF OMITTED] T5793.034
    
    [GRAPHIC] [TIFF OMITTED] T5793.035
    
    Mr. Chaffetz. Thank you. And again, to all three of you, if 
you have additional testimony that you would like to add, we 
would be happy to add that to the record.
    I would now like to recognize myself for five minutes. 
Madam Under Secretary, Mr. Manar I think accurately points out 
in his testimony that in order to solve a problem, you need to 
know exactly what the problem is. I see a major discrepancy in 
some of the numbers and I want to help clarify that. In your 
testimony, in talking about the integrated disability 
evaluation system, you say ``We went from 240 day average in 
the legacy system to 56 days.'' And it goes on. There is a 
definition of the backlog.
    The House Armed Services Committee staff and the House 
Veterans Affairs Committee staff on July 13th of this year, 
which is not too long ago, gave a briefing to these two 
committees. It says in here that the current monthly average 
completion time is 408 days. You say it is 56 days. And they 
say it is 408 days. Can you help clarify that for me, please?
    Ms. Hickey. Thank you, Chairman Chaffetz, for your 
question. First of all, let me just start by clarifying a few 
basic definitions for us all, so as I say things, you will 
understand what words I am using and their context.
    We have in the inventory and pending an overall number of 
854,000. That is not backlogged. Those are claims that even as 
we have been sitting here for the last 10 to 15 minutes, some 
more claims have come in to us from veterans, service members 
and survivors----
    Mr. Chaffetz. Okay, let me stop you right there. On July 
16th, which is not very long ago, the Monday morning workload 
report says there are 919,461 claims. You say that number is, 
what did you say it was, 860 something?
    Ms. Hickey. The numbers that I am using are 854,000.
    Mr. Chaffetz. Okay, so we are off by about 50,000 or 
60,000. And we are talking about something that is just a 
couple of days old. Why the discrepancy on those numbers?
    Ms. Hickey. Chairman Chaffetz, our backlog and our 
inventory is a dynamic inventory.
    Mr. Chaffetz. I know, but I am talking about the dynamism 
here of less than 10 days.
    Ms. Hickey. Chairman, I am happy to answer the questions if 
I am allowed an opportunity to do so.
    Mr. Chaffetz. Sure. I want to know. You are saying that 
that number is 800 and something thousand. And I am just saying 
that the VA's Monday morning workload report says it is 
919,461. That is as of July 16th.
    Ms. Hickey. Chairman, I am happy to answer that question, 
if allowed to answer the question.
    Mr. Chaffetz. Ma'am, just answer the question, yes.
    Ms. Hickey. Thank you very much.
    Mr. Chaffetz. At this time, that is why I asked the 
question, please answer it.
    Ms. Hickey. Thank you very much, Chairman.
    The numbers that I am using are from the end point of a 
month, probably the end of May. So you are probably using the 
end of this week's report. I chose not to use a floating number 
that continues to change over time and over dates and over 
weeks. So I used an end of month number to be able to come talk 
to you, to be able to have a solid number to have a discussion 
around.
    Regardless of what it is, I will tell you that our 
inventory and our pending is not our backlog. And typically, 
statistics show 61 percent of that backlog are supplemental 
claims that people, veterans who are already receiving 
compensation from us are coming back for the second, third or a 
fourth claim in that process.
    So of the number I will use, 854,000, I could use your 
number as well, and I could use the weekly report's number and 
backlog, and it would be exactly the same thing which is about 
65 to 66 percent of our claims are in backlog, meaning they are 
more than 125 days old.
    Mr. Chaffetz. Okay, so, okay, that is great. More than 125 
days old. You say in your testimony, to hear your testimony, 
things are getting so much better. We went from a 240 day 
average in a legacy system to 56 days.
    Ms. Hickey. Chairman Chaffetz, I would be happy to answer 
the question and the disparity for the briefing, what you just 
handed out. I have different processes that have different 
standards. The process you described is our integrated 
disability evaluation system that we work with DOD for our most 
wounded and ill and injured service members.
    Mr. Chaffetz. In your testimony----
    Ms. Hickey. The numbers that you are describing are the VA, 
the 56 days are the VA numbers in that complete process, and VA 
has the responsibility----
    Mr. Chaffetz. Hold on, hold on. Hold on, let's tackle them 
one at a time. This is your testimony: ``We are so closely 
collaborating with DOD through the integrated disability 
evaluation system.'' You say that is 56 days. This report, this 
briefing that went to another committee just last week says it 
is 408 days. That is not exactly close. Which one is it?
    Ms. Hickey. Chairman, that is VA days for the 10,000 we 
have done in fiscal year 2012. The VA days, the days that I 
have responsibility for doing them are 56 for those 10,000.
    Mr. Chaffetz. Are you saying this is accurate or 
inaccurate?
    Ms. Hickey. I am saying I do not know what is on that 
slide. If you were to give me a slide and give me a chance to 
digest that slide, I would be happy to do that, Chairman. You 
have access to that information right at this moment, I do not. 
I will be happy to take it for the record and respond to you.
    Mr. Chaffetz. In its simplified format, here, how bad do 
you think this problem is? I am trying to quantify it. And I am 
concerned because we are not off by a couple of hundred people 
here. We are talking about hundreds of thousands of people. And 
in your testimony, you would lead the American people to 
believe it is getting much better. But if you look at it over 
the course of time, it is getting worse. It is getting worse.
    Ms. Hickey. Chairman Chaffetz, I have clearly stated in my 
testimony that 65 percent of people in more than 125 days from 
a VA perspective is unacceptable. I have clearly stated that.
    Mr. Chaffetz. And you say that this is decades old problem.
    Ms. Hickey. And it is a decades old problem. And for the 
first time, we have an integrated plan that goes after the way 
we are organized and trained to do the work, the process we 
have done that we have streamlined, the technology that we are 
bringing in that under this Administration and this Secretary, 
VBA has never had an emphasis on its IT infrastructure to get 
from a paper-bound process to a paperless system that we do 
right now. We are implementing it right now.
    Mr. Chaffetz. Okay, my time is far expired. The numbers and 
the discrepancies here are absolutely stunning.
    I will now yield to the gentleman from Massachusetts, Mr. 
Tierney.
    Mr. Tierney. Thank you.
    Gentlemen, Mr. Manar, Mr. Violante, you have been working 
with Ms. Hickey on a regular basis. I would like you to give me 
some idea of your level of confidence in the partnership that 
your organizations have with the Department right now.
    Mr. Violante. I have been in this town for close to 30 
years working on veterans issues, 20 on the legislative staff 
of Disabled American Veterans. And I can tell you that this is 
the first time we have had the type of relationship that we do. 
It is open, it is candid. We get brought into the process much 
earlier than in the past. And we have a dialogue. And with that 
dialogue, there are things that are changed, there are some 
that aren't.
    But I feel very comfortable with the fact that we have this 
relationship now with the Under Secretary that hopefully will 
be in the best interest of veterans.
    Mr. Tierney. Mr. Manar?
    Mr. Manar. I can certainly echo those remarks. I have 
known, worked for, a significant number of Under Secretaries 
for Benefit. And General Hickey is by far the most energetic 
and most focused Under Secretary that I have had any dealings 
with at all. Our relationship with her is based on openness. 
She listens to what we say, our concerns. We do not always 
agree, and I would not expect that we would. But the fact that 
we can resolve many problems without issuing press releases or 
standing on the steps of the Capitol Building and holding a 
press conference tells that it is a much better relationship 
than anything we have experienced in many, many years.
    Mr. Tierney. So that is a good start, I would assume, on 
that. Madam Secretary, I commend you for that. I think it is so 
important that you work with our veterans and their 
representatives in this kind of an operation on that.
    I do hear that there is a problem with the simplified 
notification letters. Can I assume that that is being worked 
on, or is that hard and fixed and never going to change? Madam 
Secretary?
    Ms. Hickey. Congressman Tierney, let me talk a little about 
simplified notification letters and the involvement we did 
have, and I appreciate the involvement of Mr. Manar in this 
process.
    That idea frankly was born from the gentleman that sits to 
your side. When I was doing my walkarounds, I had the wonderful 
opportunity to meet with Congressman Braley, who pointed out in 
my very first meeting with him the superb work and effort that 
he had done on the Plain Writing Act of 2010, that mandates 
that Federal agencies who talk to their constituencies, in our 
case our veterans, family members and survivors, do so in 
plain, simple language rather than convoluted legalese and 
medical jargon. I saw at the very first moment I met him I left 
that office and took it back and said, why aren't we doing 
this? Why aren't we doing this in VA?
    One of the results of that is the simplified notification 
letter. The simplified notification letter, by the way, is 
also, the convoluted letters we have had were the number two 
reason our veterans called us on our 1-800 number.
    Mr. Tierney. And sometimes the number one reason they 
called our offices.
    Ms. Hickey. Absolutely. They said to me, explain these 
letters. I will tell you, as a veteran that retired in 2007 and 
got these two letters, that was confused by them as well, that 
we needed to tackle that issue. I appreciate what Congressman 
Braley had done under this Act, give us an extra push to do 
this.
    Here is what the results were. Because we didn't just do 
this in PowerPoint, we didn't just make it a fluffy idea that 
we just went and implemented. We implemented this new process 
in a live regional office and then a second one. The first 
time, before we had the great input from Mr. Manar, I got 33 
percent more claims out of that regional office than I had 
before implementing that initiative.
    I respected Mr. Manar's input to say, there is not enough 
information in this letter. We adjusted the letter to add more 
free text into that letter, to let that veteran hear a little 
more information without getting back to the 10-page term 
papers we were sending these veterans and they were struggling.
    I lost about half of the list I got out of that process, 
but I am willing to accept 15 percent. It is nothing to sneeze 
at. When it is allowed us, since we have implemented it, 1 
March, to decrease the ratings waiting to be awarded by 12 
percent, in four months, by 12 percent. I have done 30,000 more 
claims in four months by doing this process.
    Yes, I acknowledge the concerns of my VSO partners, and I 
call them partners, because I need them to go through this 
process. I acknowledge their concerns that sometimes our 
employees aren't filling in that new little text box the way 
they should. We are working that hard, I have made an 
investment in quality review teams in every single regional 
office and they have that responsibility to make sure we are 
doing it right. I have asked his folks in the offices to help 
us and point to the ones that don't make sense.
    Mr. Tierney. Thank you very much. I yield back.
    Mr. Chaffetz. Thank you.
    I now recognize the gentleman from Texas, Mr. Farenthold, 
for five minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Madam Under Secretary, I realize you all are working very 
hard to streamline the process and get these claims handled 
faster. But it is not just disability claims that are some of 
the complaints that I am hearing from veterans in South Texas. 
It is the amount of time necessary to get medical attention. I 
hear from VA employees more or less off the record that they 
are having trouble hiring and maintaining physicians to work in 
their hospitals and clinics. And I am hearing from doctors back 
home that it is taking in excess of a year sometimes to get 
payments on vouchers from the VA.
    Can you talk a little bit about what is being done to 
address these problems as well?
    Ms. Hickey. Thank you, Congressman Farenthold, for your 
question. I will say that I am on the benefit side, but 
certainly hear about the work they are doing on the health side 
very frequently. I know that Dr. Petzel is the Under Secretary 
for Health, is working very, very heavily on making sure all of 
his physician positions are filled. I know we have a big push 
on hiring and we are seeing in a great many of your locations 
are having some good effort of hiring, about 5,000 mental 
health professionals in rapid order. They are making some 
really good headway and getting some really strong candidates 
across the Nation.
    I believe that will help. This is obviously not my area of 
responsibility. But I believe that will help.
    Mr. Farenthold. I guess what I am getting at and what 
concerns me is, and maybe we will address this to our veterans 
service representative, Mr. Manar and Mr. Violante, is, is 
there a culture within the VA of well, we will get it done 
eventually, as opposed to what I think it should be of, if we 
need to stay late to finish this work for our veterans, we need 
to do that? Would either one of you gentlemen like to comment 
on that?
    Mr. Violante. Thank you, Congressman. I believe that the 
majority of VA employees are dedicated employees that do what 
they need to do to ensure that veterans are taken care of. Over 
the years, the problem has been underfunding of the VA health 
care system. We were able to get advanced appropriations in 
place for VA, which has helped greatly. But we are still seeing 
that there are insufficient funds for VA to hire the people 
that need to be hired and to ensure that veterans are getting 
the proper access.
    Mr. Farenthold. And I understand that funds are an issue 
for everything. Unfortunately, it is not a bottomless pit in 
the Federal Government as far as money goes. It is something 
that we obviously in Congress are struggling with. But I think 
if you look at how we have addressed budgets, we have been very 
generous to the VA as compared to some of the other agencies.
    Mr. Manar, you also mentioned in your written testimony, or 
actually in your testimony, that there were some things that 
Congress had failed to do. I would be interested in what you 
think we have failed to do in Congress that has adversely 
affected our veterans.
    Mr. Manar. Thank you. As I pointed out in my written 
testimony, the failure to pass budgets on time, it is no 
secret, it happens----
    Mr. Farenthold. You are on the wrong side of the Capitol 
making that argument.
    [Laughter.]
    Mr. Manar. It is a joint problem, okay. But the continuing 
resolution has become a nightmare for the VBA and people in the 
regional offices. In my prior life, I worked for the VA for a 
little over 30 years. I was a manager in Los Angeles and had 
150 people working for me. I can tell you in the 1980s and 
1990s, whenever there was a failure to pass a budget on time, 
we were put into a hiring freeze. And in Los Angeles, we were 
experiencing on average 10 to 15 percent turnover every year.
    In that kind of situation, where you wait sometimes three 
or four months, sometimes an entire year or more before you are 
allowed to hire, you wind up with huge gaps in employee 
positions and employee development. And it cascades over years. 
It is not the kind of thing where if it happens once every five 
years you can make adjustments and live with it. This is a 
problem that is nearly constant, according to reports that I 
have seen and information I put in my testimony.
    Mr. Farenthold. Let me ask Ms. Hickey. It has been pointed 
out that part of the problem is, it is a complicated system, 
there are lots of things you have to look at. How long does it 
take to get an employee up to speed where he or she can be 
effective in their job and get them trained to do that?
    Ms. Hickey. Thank you, Congressman, for the question. It 
allows me to talk about one of our transformation initiatives, 
which is fundamentally changing that. In the past, it would be 
18 months to two years to get someone to a full journey level 
capability to rate a case. What I will tell you under our new 
challenge training, where we are taking our folks and giving 
them national level training, intensive level training, we are 
seeing some phenomenal results. And we have repeated it four 
times, so I know it is not a fluke.
    Mr. Farenthold. And are they able to work with your medical 
professionals on the site? How much do you trust the doctors in 
the military, or your own VA doctors, to make those 
determinations versus independent work that your staff has to 
do?
    Ms. Hickey. Congressman, I will tell you, we always depend 
on the medical opinion that comes to us and the medical exam 
that comes to us from a trained medical person, a certified 
person. We do not make those decisions on our own. We rely 
heavily on our health administration physicians who do our 
compensation exams and tell us the results. Even now our 
clinical doctors, I will also tell you, with the new disability 
benefit questionnaires, another transformation effort we are 
doing, we now have the ability for private medical physicians, 
for our veterans to bring us those documents, fully filled out, 
and for us to use them in the course of doing our claim 
adjudication.
    Mr. Farenthold. I am way over time. I appreciate everyone's 
testimony and their hard work for those who have served our 
Country.
    Mr. Chaffetz. Thank you. We will now recognize the 
gentleman from Iowa, Mr. Braley, for five minutes.
    Mr. Braley. Thank you, Mr. Chairman.
    General Hickey, Madam Under Secretary, thank you for your 
kind words. I didn't come here looking for them, but I think 
your comments about the impact of the Plain Writing Act, which 
applies to every Federal agency, not just the VA, are an 
example of why agencies need to do a better job of eliminating 
legalese and gobbledegook in their writing, so that their 
intended audience actually understands what is being told to 
them. I am glad that the impact of those changes is having a 
positive impact on your agency.
    One of the things that I can tell you is I am very honored 
to serve on both Veterans Affairs and the Oversight and 
Government Reform Committee. We talk about this problem on 
Veterans Affairs all the time. It is the number one issue my 
veterans back in Iowa talk to me about. But as someone who 
spent my entire adult life dealing with disability evaluation 
systems, I can tell you, a lot of people who complain about 
this problem have very little understanding of the scope and 
magnitude of the problem.
    So if you are standing in front of a claims file that could 
reach this high of records from someone who may have had 
multiple amputations, traumatic brain injury and treatment for 
post-traumatic stress disorder over a long period of time, and 
you are trying to go through and analyze medical information to 
determine the nature and extent of somebody's disability 
impairment rating, and you are doing that by hand, it is a far 
more time-consuming process than when you have the capability 
of doing word searches in an electronic format.
    And one of the things that we know is by moving away from 
this paper-based system to a paperless electronic system, we 
will hopefully greatly simplify the ability of ratings analysts 
to get the information they need in a timely basis. Because you 
have to establish first of all a service-connected disability, 
then an injury that is related. Then you have to prove the 
nature and extent of the impairment of each single injury. Then 
you have to determine what that impact is on a whole body 
impairment. These are very confusing things to the people being 
evaluated, let alone to some of the evaluators.
    So my hope is that this process that is in place is going 
to get us to the point where we can radically shorten and 
simplify the time it takes. But it also comes down to what Mr. 
Manar and Mr. Violante were talking about, which is the culture 
of we can do this that I believe has been missing for far too 
long in this process.
    There was a famous judge in Virginia, Bob Marriage, who 
started the rocket docket, who would go in and clean up claims 
backlogs in Federal courts all over the Country by changing the 
dynamic of how people in that process viewed their obligation 
to the people in the system.
    So I am interested in knowing, General, why you think the 
process that is in place right now is going to get you to where 
you need to be in the time frame set out.
    Ms. Hickey. Thank you, Congressman Braley. Thank you for 
the description of your real life experience with this issue, 
because that is what we face every single day. I literally have 
raters sitting with little rubber fingertips going through the 
18 inches worth of paper to try to find the one time it says 
``back'' in that record. And they are working hard to find 
that.
    But I also have raters today in VBMS in four different 
sites who are putting the word ``back'' into a searchable 
function in VBMS, and it is highlighting the word ``back'' 
throughout that 18 inches of former paper that is now an image, 
and it is telling them by the push of a next, next, next button 
where it is in that 18 inches and solving all of that time and 
effort.
    In addition, it is allowing them to sit and write, with 
their fancy tools they now have in VBMS, annotations, circle it 
so that when our VSOs want to see the reasons for our 
decisions, or really know what the data is we looked at, they 
can see it right away and they will be able to, by the way, 
when we deliver this month on the full round that we are going 
forth on VBMS.
    Why do I think it will work? Because nothing in this plan 
is PowerPoint. We have tried it, tested it, measured it, gotten 
data on it and made a decision that together all of this will 
help us to go after this issue and knock it down.
    Mr. Braley. Thank you.
    Mr. Manar, Mr. Violante, I am going to direct my last 
question to both of you, because you both identified something 
that is very real. That is, Mr. Violante, you said building a 
culture based on quality and accountability should be the goal. 
But it is impossible to do with insufficient funds. And it 
seems to me when we are talking about taking care of our 
veterans, you can't talk about implementing a dramatic new 
change in the system itself and then keep going back and 
wondering whether there is going to be enough money to pay for 
that transformation.
    So what concerns do you have on the funding side?
    Mr. Violante. Well, we have asked the Veterans Affairs 
Committee to do some oversight on that. Because we want to make 
sure that the money that we are asking Congress to provide the 
VA is being used properly. I can't tell you if the money they 
are putting into VBMS is appropriate. I can tell you we think 
what they are doing with VBMS is the way it should go. We have 
been arguing this point for a decade on a searchable data base. 
We would like to see that happen.
    But again, we are aware VA has been fortunate, more 
fortunate than any other Government department or agency. But 
we are sending men and women into situations that cause them to 
have problems. And this Government needs to take care of those 
problems, regardless of what that cost is.
    Mr. Braley. Mr. Manar?
    Mr. Manar. One of the things that we have suggested to 
committee staff members is that as part of the oversight 
function of the House Veterans Affairs Committee that you 
commission an independent third party review to take a look at 
VBMS, its development, where it is now, what problems are being 
addressed, how they are being addressed, whether the 
contractors they are using or the in-house personnel are 
adequate to the task. And to come up with recommendations so 
that, at this point, the program can be refined and adjusted, 
rather than wait until the end and find that there are a number 
of problems that still exist, that still keep them from 
achieving the timeliness and the quality and work process that 
they hope to achieve with this system.
    Mr. Braley. Thank you. I yield back.
    Mr. Chaffetz. Thank you. I now recognize the gentleman from 
Idaho, Mr. Labrador, for five minutes.
    Mr. Labrador. Mr. Chairman, I don't have any questions. I 
yield my time to you.
    Mr. Chaffetz. Thank you.
    Madam Under Secretary, the VA reported that it did award 
$2.8 million to 245 senior executives. How do we justify that? 
That is a very small group of people. We have hundreds of 
thousands, close to a million veterans waiting in line and 245 
people got $2.8 million in bonuses? How do we justify that?
    Ms. Hickey. Chairman Chaffetz, thank you for the question. 
First of all, I will tell you in VBA, since 2009, we have 
actually decreased by a full third the number of our SESers 
that are getting outstanding ratings. So we have done what this 
Administration has asked us to do, which is to really 
scrutinize the ratings that we are giving to our senior 
executives and bring them down.
    I will tell you from a VBA perspective, I have 98 metrics, 
performance metrics, that I rate every single one of our senior 
executives against. They are performance based, they are 
production and quality based.
    Mr. Chaffetz. How--I appreciate that, but----
    Ms. Hickey. And in those environments where I do have 
outstanding leaders, I need to keep those outstanding leaders. 
They are making a difference for our veterans, their family 
members and survivors.
    Mr. Chaffetz. How many of them, how many of the people that 
work for you got those bonuses?
    Ms. Hickey. Congressman, I will have to bring you the 
explicit information. I wasn't prepared to come and talk about 
bonus structure. I certainly can have that data and would be 
happy to share it with you.
    Mr. Chaffetz. All right. It is certainly not unanimous, 
this love fest, for these simplified notification letters. In 
fact, Mr. Manar and Mr. Violante both commented in their 
written statements that, let me read, Mr. Violante said ``Many 
of the SNLs reviewed contained so little information and 
explanation that even an experienced officer has difficulty 
determining if the rating decision was correct without 
reviewing the full file.'' And Mr. Manar, in his testimony, 
wrote ``With only general information provided by VA, veterans 
are faced with a choice of blindly accepting the decision or 
filing a notice of disagreement in order to obtain the reasons 
for the decision.''
    The concern is, if you get a 100 percent disability, you 
are probably going to agree with it. If you get a 5 percent or 
10 percent, you are probably going to have some questions. We 
are trying to find the proper balance between handing somebody 
so many documents and simplifying the process. But these two 
gentlemen here certainly don't seem to be, based on those 
statements, fans of this.
    How do we find that proper balance?
    Ms. Hickey. Chairman Chaffetz, thank you for your question. 
I will address it by saying that I today provide access to our 
VSOs to every one of those files for them to do whatever 
research they want to do. They will have even greater access to 
knowing exactly the data and the information that we know when 
they are joining us this month on VBMS when we go into the new 
Veterans Benefit Management System.
    In addition, I have wholeheartedly encouraged, as we go 
through change, there are adjustments and adaptations. There is 
a learning process. I have wholly encouraged them, at the local 
unit level when they have a service officer, to find one that 
just doesn't have enough, for them to go directly to that 
supervisor and say, need a little help there, there is not 
enough there. But we will handle that on the spot and we will 
train to that as we learn more and more about that.
    Mr. Chaffetz. Don't you think that is contributing to the 
backlog? People are having to get back in line again to----
    Ms. Hickey. It has not. In fact, it is handled on the spot 
and it has reduced our backlog by 30,000.
    Mr. Chaffetz. Do you really think that veterans are 
convinced that it is just ``handled on the spot?'' I mean, our 
office, we get these all the time. This is a lot, for you to 
say that they are just handled on the spot.
    Mr. Manar, is that true? Are they handled on the spot?
    Mr. Manar. Depending on the regional office, and the 
individuals that our service officers deal with, they are 
sometimes handled on the spot. In other instances, and it is 
rare, our service officers are told, if you don't like it, you 
can appeal it. And then there is a wide range of interactions 
in between.
    Our concern isn't, we are concerned about the SNL letters 
because it is not just our service officers having to try and 
figure out why VA made a decision. We train our people to do 
that, to go behind and look at the data and basically 
reevaluate it and see if they would have arrived at the same 
conclusion. But perhaps 50 percent of veterans are not 
represented. So they have to accept whatever VA gives them on 
blind faith or decide whether they are going to appeal on their 
own.
    The point here, and I would like to say this, General 
Hickey has worked with us significantly to try and improve 
these letters. She put out some directives last February to the 
field that if those directives were followed, the letters, they 
would be barely adequate, in our view, but at least they would 
be adequate. The problem is that when we have come along in 
April and May and looked at letters and decisions that have 
been made in many different offices, we are finding a 
significant number, 50 percent to 60 percent, that are not 
getting the job done.
    Mr. Chaffetz. That is a pretty high number. Mr. Violante, I 
know I am past my time, but I want to give you an opportunity 
to respond, then we will go to the gentleman from Illinois.
    Mr. Violante. Like Mr. Manar, we have similar experiences 
with regard to whether or not we can get something corrected on 
the spot, depending on the regional office and the employees.
    With regard to the SNLs, we are not opposed to the concept. 
We have seen some good ones come out. And we have brought the 
bad one to General Hickey's attention. But if they can work on 
that, there is a balance that needs to be done, so that 
veterans can understand in a simplified way what the VA's 
decision is.
    Mr. Chaffetz. Thank you. I will now recognize the gentleman 
from Illinois, Mr. Quigley, for five minutes.
    Mr. Quigley. Thank you, Mr. Chairman.
    General Hickey, getting back to something that Mr. Braley 
talked about. That is the electronic records or digital records 
or what have you. Just to clarify, in an ideal world, what is 
the format from which you get information from DOD on a 
veteran?
    Ms. Hickey. Thank you, Congressman Quigley. In an ideal 
world, I would get every bit of it electronic, data to data, 
directly into my system. Second best answer is put it on a CD 
disk and don't give it to me in paper.
    Mr. Quigley. How much information do you get in an ideal 
format today?
    Ms. Hickey. Electronically?
    Mr. Quigley. Yes.
    Ms. Hickey. Virtually none. I get most of it in paper.
    Mr. Quigley. And no editorials here, but your understanding 
of whether DOD is moving that direction, you're understanding 
that that is their intention, how far along they are in that 
vein?
    Ms. Hickey. We are in conversation heavily on multiple 
fronts with DOD for all the different pieces of evidence that 
they have for that service member. And some places we are 
further ahead. I will tell you the electronic health record, 
substantially further ahead. We have established a whole 
program management office and they are marching in that 
direction. From some of the personnel records and the existing 
service treatment records, we are beginning that discussion and 
trying to drive a quick solution home in that regard.
    Mr. Quigley. And I am optimistic that maybe some day we 
will get to that point. Perhaps I am too optimistic because I 
am a Cub fan.
    [Laughter.]
    Mr. Quigley. But what exactly does that mean? One record, 
all other things being equal, the average time it saves you to 
be able to make a decision between a stack of papers and a 
digital record?
    Ms. Hickey. Thank you, Congressman, for that question. I 
will tell you yes, on average, our days, today is 250 average 
days to complete a claim. One hundred and seventy-five of those 
250 days are we, VA, waiting for evidence we don't own. That is 
the significant reason why we need to get data, not paper. And 
we need to get access to systems, not wait for a monthly report 
that rolls to us that gives us that information.
    Mr. Quigley. And I appreciate that.
    I also understand that there is a disparity between the 
different regions of the Country about what you get in terms of 
a fully developed claim. I understand that the veterans work 
with the VSOs. But you have a far better record in some areas, 
without offending anyone, than others. Can you explain the 
difference that makes and what we can do about that?
    Ms. Hickey. Absolutely, Congressman Quigley. This goes to 
the bigger issue. Let me first say that your particular 
regional office in Chicago is one of our stellar examples of 
VSOs working, veterans service officers, State directors, 
county service officers, working closely with the regional 
office to bring in something we called fully developed claim, 
which means we have partners helping us gather all that 
evidence and putting it together and giving it to us. When we 
do that, we do those claims in substantially less time. In 
fact, it is 117 days on average to do that, well below the 125 
mark.
    Another great example is our Togus, Maine office, where 
those State representative, those VSOs have driven a 43 percent 
of every claim that comes in the door is a fully developed 
claim. And that makes a difference on our timeliness, it makes 
a difference on our quality. And frankly, in our new 
organizational model, I can put those down the express lane and 
get them done quickly.
    Mr. Quigley. Now, it is fair to assume that veterans are 
veterans wherever they are from across the Country. So what 
accounts for the difference between developing a fully 
developed claim in one area versus another otherwise? Is it 
just the training, the information, the management aspects of 
what is taking place in those areas?
    Ms. Hickey. Congressman Quigley, we are working, actually a 
pretty in-depth exchange with our veterans service officers and 
our State directors, pulling some of these benchmark regional 
offices and the folks that are working with them into a team to 
say, tell us how you are doing this, so that we can replicate 
this level of contribution of fully developed claim in lots of 
other places. So we will be asking your Chicago regional office 
and your State and local VSOs in Chicago to join us. We will be 
asking the Maine one who have done such a great job, in 
Chicago, Togus, to come and help us.
    I don't know explicitly but I need to drive those fully 
developed claims up much higher than we have them today. I 
think on average we get about 3 percent nationally, if I do an 
average over the whole mix; 3 percent of them we are getting in 
right now today fully developed. I am willing to do whatever 
barriers I have to break down to have our partners and our VSOs 
and our State veterans affairs offices to help us do that, and 
to help that veteran.
    Mr. Quigley. Mr. Chairman, if it is appropriate, if the 
other two gentlemen wish to comment on those two points.
    Mr. Violante. Mr. Chairman, one of the things too you need 
to consider with the fully developed claim is who is filing the 
claim. I have been out of the military now for 40 years. And if 
I was going to file a claim saying that I had an injury back in 
the military, it would be hard for me as an individual to try 
to go back and contact all those doctors that I saw. That makes 
it difficult.
    So if you are a younger veteran just getting out or someone 
that has been in the same area all your life, it is a lot 
easier to get that fully developed claim together than it is in 
some other cases.
    Mr. Manar. Another impediment for service officers is their 
very caseload. At a time when there are so many claims pending 
before the VA, the question is, how much time can they devote 
to a single individual to work with them to help make a case 
fully developed. So in some of our offices where service 
officer caseload is extremely high, I would expect that they 
would have lower percentages of cases that are fully developed.
    Mr. Quigley. Thank you. I yield back.
    Mr. Chaffetz. Thank you. We will now recognize the 
gentleman from Vermont, Mr. Welch, for five minutes.
    Mr. Welch. Mr. Chairman, thank you for calling this 
hearing. And I thank all of the witnesses who are here for your 
good work. It is very, very challenging. I appreciate that the 
backlog is a problem.
    A couple of things. One, in Vermont, we process in Vermont 
most of our local claims, not the pension claims. And that 
local administration has a better turnaround time in Vermont 
than the national average. General Hickey, do you have plans to 
try to facilitate local administration of claims, which in our 
case certainly seems to have a better outcome?
    Ms. Hickey. Thank you, Congressman Welch, for your 
question. I will tell you nationally, we still do that model 
everywhere. We still have local adjudication of claims. I think 
what you might, if I can offer, what you might be talking about 
is the pension claim consolidation we have done into the three 
centers.
    Mr. Welch. Well, I want to get to that, that is correct. 
Because the pension claims in our case are done in 
Philadelphia, and the turnaround time is pretty slow. We have 
had some very, very tough situations, including one family that 
contacted our office. This woman, the mother of Howard Hoye, 
the son who had contacted us, they had a claim that just wasn't 
answered for years, and it wasn't until after the mother died, 
and this was her trying to get pension benefits from what she 
was entitled to as the survivor, it wasn't until after she died 
that they adjudicated this.
    What are the prospects for moving this much more quickly on 
the pension side?
    Ms. Hickey. Thank you, Congressman, for your question. I 
will tell you one of the reasons why we consolidated those 
claims is so we could put oversight, and it is very applicable 
to this Committee, on that work, which was frankly being 
overshadowed by compensation at work when it was being done in 
the regional office. We did as a result of doing that increase 
the quality of those decisions substantially. They are now up 
at 98 percent. I am not happy with the fact that we are not 
moving some of those claims fast. Neither are the people who 
are working them. We have a team who is putting together----
    Mr. Welch. I understand your concern. I am just trying to 
get to understand this. In the case of this claim, the 
application was logged in as received in May of 2010. But it 
sat literally untouched for six months. What would be the 
system problem that allowed this claim to be sat untouched for 
six months?
    Ms. Hickey. Congressman Welch, I would be happy to take 
that specific one or any other specific ones you have and go 
look at them. I can't make a judgment on that particular case. 
There are oftentimes other issues. I would be happy to take it 
for the record and get you a response back very quickly.
    Mr. Welch. It might be helpful just so that I understand 
what the challenges are that you face and your system faces. It 
worked after this woman died, she got a condolence letter like 
almost immediately. So one part of the system was working. But 
the part that really would have been beneficial to her during 
her life was not working.
    So maybe we can incorporate that condolence system that 
seemed to work immediately into the pension review system that 
did not.
    Ms. Hickey. Congressman, I would be happy to take that and 
look at it and get you a good response.
    Mr. Welch. Okay. You are providing us with a copy of your 
strategic plan?
    Ms. Hickey. I am, Congressman. The House Veterans Affairs 
Committee asked me to produce the plan. I have the plan. When I 
went back to get the plan to send it over, I realized there are 
2014 and 2015 budget numbers in there. I am not allowed to 
release those 2014 and 2015 budget numbers at this point in 
time.
    So we scrubbed those out and we recirculated back through 
the approval process, so that it can arrive here.
    Mr. Welch. Thank you very much, General.
    Mr. Manar, in a June 19th hearing before the Veterans 
Affairs Committee, you were pretty vocal about your support of 
the VBA's initiatives overall. How could the VA improve?
    Mr. Manar. A broad question. How can the VA improve?
    Mr. Welch. Well, it is a broad question, but presumably you 
have thought about it a lot, so the one, two, three would be 
very concrete suggestions. Otherwise it is just a general 
discussion.
    Mr. Manar. All right, how could VA improve. The emphasis 
right now is on production. Everybody is appalled at the, call 
it inventory, backlog, workload or however you want to call it. 
It is a huge number. And as you have seen in our testimony, 
both written and oral, we use the 2 million plus number of 
claims and issues pending, because all of those things have to 
be processed by VBA personnel and those are the same people who 
work the front and the back end of rating cases. So if those 
were to go away, you would certainly have a lot more people 
focused on development and processing award decisions and 
everything would move more quickly. So it is all part of the 
backlog there, the workload.
    What would we suggest? Focus on quality. We are appalled, 
as some other members mentioned earlier, about the low quality 
rate, high error rate, 16 percent nationally, in some offices 
it is as poor as 25 percent. If you go look at the accuracy 
reports from six or eight months ago, before some changes were 
made in Baltimore, for several years they were rocking along at 
a 30 or 32 percent error rate on ratings. This is totally 
unacceptable. And those kind of problems are easily corrected.
    But the correction requires an impact on production, which 
means that VBA managers are reluctant to take those actions. 
What I would suggest is that especially for trainees, but for 
anyone who has quality issues identified, they need to have 
their ratings reviewed by a second person. I know that that 
takes place, mentoring for new people, for a little while. But 
it is far too easy to give what they call single signature 
authority to new ratings specialists. And the number of cases 
that are reviewed in a year's time on an individual are 
relatively few. There are lots of opportunities for problems 
that go unidentified.
    Our service officers and those of other service 
organizations are the last quality check that VA has in terms 
of the quality of a rating. That is why the earlier question 
about can we get problems fixed is really critical. Because if 
that problem goes out the door and is unfixed at that point, 
then usually it is a veteran who is impacted negatively. It is 
strange, but anecdotally, in my experience, most mistakes that 
VA makes, although they tend to be bipartisan, they tend to go 
against veterans much more frequently than they do against the 
government.
    Mr. Welch. Thank you.
    Mr. Chaffetz. Thank you. I now recognize the gentlewoman 
from California for five minutes.
    Ms. Speier. Thank you, Mr. Chairman. I really appreciate 
your holding this hearing. This is precisely the kind of work I 
think we should be doing on oversight.
    And I want to say to General Hickey, I am impressed by you. 
I have not been impressed, however, by what I see as a west 
coast crisis. And that is, the delays that are taking place in 
Seattle, Oakland and Los Angeles are truly unacceptable. And I 
want to go over a few things with you.
    I spent maybe four or five hours at Oakland meeting with 
your directors there. I then joined with Congresswoman Barbara 
Lee and we had a fix-it session in San Francisco. You have 
probably heard about it. Over 250 veterans showed up. They were 
angry, they were hostile and they had every right to be. I am 
just going to tell you a few of these stories.
    Sergeant Arie Sollenburg had multiple tours in Iraq. He was 
facing eviction from his apartment while he waited for over a 
year for a disability ruling. He was unable to work, a fact 
that took Oakland VA months and months to try and verify. He 
needed treatment for PTSD. He was ordered by the VA, actually, 
to go to the VA medical center in Oakland.
    The breaking point came the day before I took his wife and 
his mother to meet with the director at Oakland. Until that 
meeting was set up, the Oakland office was unaware that Mr. 
Sollenburg was hospitalized in the VA facility where he was 
expected to remain for several months. At a VA fix-it meeting 
that we had, he told a packed room that he almost committed 
suicide.
    Now, the good news is that he will be boarding a plane for 
home tomorrow. He has had his surgeries, he has had treatment 
for PTSD. And he has his disability benefits. Had we not 
intervened, Mr. Sollenburg would be probably dead today.
    Another gentleman, a 93 year old World War II vet who was 
confined to a wheelchair, showed up at the fix-it meeting. He 
waited for over two years to have his claim adjusted. He had a 
service connection of 60 percent. He was there, in his 
condition, his caregiver said, it has been two years and now 
you are telling us that we have to go back to a doctor to 
determine what his status is, even though we have already done 
that.
    Now, the good news there is, because we had that fix-it 
meeting, within a week he was given retroactive payment of 
$32,000 and is now receiving $2,000 a month. But he is 92 years 
old.
    Michael Cortez argued that his Parkinson's disease was 
caused by exposure to Agent Orange. He again waited for two 
years. As it turned out, because we had that fix-it meeting, 
his claim was recently resolved. He has a one-time retroactive 
payment of $92,000, and now he is receiving $3,400 a month.
    Now, I am telling you these stories, because had we not 
intervened, they would still be languishing. We have a huge 
problem on the west coast. They are not incorporated in the 
pilot program that you are doing at various VA claims 
facilities around the Country. And I have a series of questions 
I want to ask and limited time. So what are you going to do to 
fix it on the west coast?
    Secondly, I have sent a letter to the director, basically 
saying, if you have Agent Orange claims and they are a Vietnam 
vet, they are old. They are in their 70s now, some of them even 
in their 80s. If they are Agent Orange and there is a 
presumption and they have the condition that the presumption 
cites, why aren't we fast-tracking those claims?
    And then my third question is on MST. As you know, military 
sexual assault is absolutely out of control in the military, 
19,000 case a year. As I understand it, your reviews have found 
differences in denial rates between sexual assault PTSD and 
other PTSD cases. I would like to know what you have found and 
what you are doing about it. And for those that have been 
previously denied, what can be done for them in terms of 
refiling and being reconsidered.
    Thank you.
    Ms. Hickey. Thank you, Congresswoman Speier.
    Let me start very quickly with what we have done in Oakland 
and where I am going and that I am going to repeat this same 
process in other regional offices that are preforming, having 
challenges in performance. This is, by the way, the very first 
time that anybody in VA and any VBA Under Secretary has ever 
done this. As you know, we stood down Oakland, other than we 
kept some production going. We stopped all the inflow into 
Oakland. I got your leader, a brand new leader in there helping 
to get this right. I have also moved the area director from 
Phoenix up to Oakland, where he sits in working with the new 
senior leader there in Oakland. We took every single one of 
your employees, our employees, in that regional office and we 
ran them back through challenge training.
    The good news is, we are done with that in June, they are 
back to work and I will tell you what the results of that 
training were for them for their quality. They were before this 
environment, their quality was about 69 percent. That quality 
translates into a production problem, because when we find the 
error, we have to recycle it back, as you well described.
    They are now, after that course, their post-training test 
was at 93 percent. So we will see an impact associated with 
retraining that entire regional office from head to toe. And I 
am going to use that model to go after others who are in that 
same challenged environment.
    The second thing we have done is I have established across 
the Nation, in ever single regional office, and I am so glad 
that Mr. Manar raised quality so I can tell you, I made an 
investment last fall. There are now quality review teams that 
are trained to the star national quality levels that are 
working in every single regional office helping us to fix our 
errors. And why does that matter? Not just because of what that 
quality number says. But every time we make a mistake, it costs 
us 39 days in the process. So if you have extremely low 
quality, you are likely to have a recycle of those claims quite 
frequently, and a lot of 39-day limitations.
    Third thing I will say, you asked about old claims, AO fast 
track. We do have a fast track for our Agent Orange claims. I 
am happy to continue to advertise that we have one. And by the 
way, those are not the three presumptives that we have just 
done under this Administration, taking care of those three 
presumptive conditions. We are all done with those. We will 
have Agent Orange claims forever, until the last Vietnam 
veteran who was ever exposed to that is not here anymore. We 
will have those claims. They are not the one for the three 
presumptives that took us 37 percent of our work force and more 
than 260,000 claims that we did in the last two years. Right 
decision to make by our Vietnam veterans.
    That did have an impact in Oakland. It did have an impact 
in Seattle. It did have an impact in every single regional 
office across our Country. It had an impact to the tune of 
260,000 claims in backlog that would have not have been in 
backlog. But I still stand firm for our Vietnam veterans, and 
the daughter of a Vietnam veteran to say it was absolutely the 
right thing to do by those men and women who were never 
welcomed home the way this Administration and this Secretary 
has made that a priority for me to do.
    Then the last thing we will do, I am so glad you brought up 
military sexual trauma. It is the very first issue I grabbed 
the reins on and ran with when I got on station here, aside 
from, obviously, the backlog. And I will tell you, I am the one 
that asked for us to go show, show me what our grant denial 
rate is between MSTD, PTSD and what it is between PTSD for the 
other three, combat, fear, terrorism. I asked for us to do 
that. I got it back and I said, this is unacceptable. We had a 
25 percent difference in our grant denial rate. I said, we are 
going to change this process. We did.
    And by the way, the process is now in a segmented lane, 
which is one of our new transformation initiatives. We have 
trained, from the VBA person who handles it coming in the door, 
through the exam doctor in the health administration who does 
the health exam and we now have everybody trained. I just got 
the data last Friday that shows I have closed that gap as a 
result of that effort. We have increased our grants a full 35 
percent and our MST as of last Friday because of the direction 
we did, the actions we took to make those right and do those 
right and well.
    Ms. Speier. Mr. Chairman, can I ask a follow-up question? I 
know my time has expired.
    Mr. Chaffetz. Feel free, sure.
    Ms. Speier. Thank you.
    What are we doing about those that had their claims denied? 
Are we going back now and saying, refile?
    Ms. Hickey. I am glad you asked that question as well, 
Congresswoman Speier. We are sending letters to everyone we 
have ever denied and saying, this is what we do, we have a new 
process, if you feel you were denied in error, please send it 
to us and we will reaccomplish it.
    Mr. Chaffetz. Before the gentlewoman yields back, I would 
ask unanimous consent actually to include the inspection of the 
VA regional office for Phoenix, Arizona, dated July 17th. One 
of the concerns, if I understand it, it took the head of, or 
one of the leaders in the Phoenix office to put them into 
Oakland to solve the problem. But when the inspector, office of 
the inspector general went down to the Phoenix office, they 
found that in one of the summaries, staff did not correctly 
process 47 percent of the disability claims.
    So I would ask unanimous consent that we include this in 
the record.
    Mr. Tierney. I will allow unanimous consent only if General 
Hickey gets a chance to make a comment about that.
    Mr. Chaffetz. Sure.
    Ms. Hickey. Thank you, Congressman Tierney and Chairman 
Chaffetz. I would appreciate the opportunity.
    The leader that I put in Phoenix is not the Phoenix 
regional office director. He is the area director for all of 
the west environments. So I moved him there to provide better 
oversight in Oakland. He happens to have his office as area 
director office in the geography called Phoenix, Arizona.
    The second thing I will tell you is, it is important to 
note in the IG reports, and the IG states it in their report, 
there is a sentence in there that says this does not reflect 
the overall quality of all things done at this regional office. 
This reflects the bit and piece that we specifically went to 
look at. I will tell you, one of the things they have been 
looking at is something called 100 percent temporary 
disability. What that mean is if you went and had a medical 
situation, you had a knee surgery, you are given 100 percent 
temporary disability for a short period of time in which we 
will then come back after that period of time and readjudicate 
your claim based on the healing time associated with that 
injury.
    We had a computer problem, we had, had is the operative 
word, we had a computer problem that was not capturing the 
comments that our people were putting in there that would 
notify them when that period was up. That has been fixed as of 
June. It is now working. It is not going to create that problem 
again.
    But it is a period of time when they were at Phoenix, which 
was several months ago. That was still an issue. It also notes 
in that Phoenix report that those people had been fixing those 
issues as directed by the STAR and compensation services as 
they were going.
    Mr. Chaffetz. Thank you. I would invite you, if there are 
additional comments in response to the inspector's report, to 
please include those for the record.
    Ms. Hickey. I am happy to do so, Chairman.
    Mr. Chaffetz. I now recognize myself here as we kind of 
conclude things. Listen, I appreciate the gravity and the task. 
I can tell in your voice and inflections you are passionate 
about this issue.
    I appreciate the fact that you actually show up to these 
hearings. We had invited Deputy Secretary Gould to show up 
here, but he was unavailable. My understanding is that when 
there is an opportunity at the Veterans Affairs Committee, it 
was unavailable for him to show up, but you actually showed up. 
So I appreciate your being here. This is not easy to go 
through, and the task is difficult, to say the least. We are 
talking about 300,000 employees and $140 billion, and people 
dealing with very difficult situations.
    So A, I want to thank you for being here, and the passion 
that you bring to this. Our job, role and responsibility is to 
provide some oversight and to try to fix the problem. Because 
we are Oversight, but we are also Government Reform. So as we 
look at this, we want to try to come up with solutions, not 
just point out some problems. I am sure they are evident to you 
and to others.
    So I want to give you a second here. And it is hard to do 
it justice, given the gravity. Any question deserves a 45 
minute answer. If you could just wave your magic wand and do 
two things, very briefly, and I will give you each an 
opportunity to answer this, what would you do?
    Ms. Hickey. I would implement the plan that we have 
developed that produces good results, and we are seeing the 
results.
    Mr. Chaffetz. Okay. Mr. Manar?
    Mr. Manar. I would, if I could wave that magic wand, I 
would change the culture on quality. As I said earlier, the 
emphasis is on production and the huge backlog. But if 16 
percent of the cases, decisions are wrong, then you are not 
serving those veterans.
    Mr. Chaffetz. And let me just interject there. When I 
talked to somebody who is on the Veterans Affairs Committee, 
they stated that as well. Their concern was customer service. 
We look at all these metrics and backlogs and other things. But 
maybe one of the things we ought to be looking at is customer 
service and how pleased the veterans are with the services that 
they are provided. Maybe that is the way. Instead of handing 
out $2.8 million to senior executives, maybe it ought to be the 
people on the front lines that are going through this. And not 
just to get their scores higher and give our more claims, but 
how they are treated, how they go through that process. 
Somebody can come in and independently--maybe that is the 
metric that needs to change. Maybe that is part of that culture 
that you talk about in terms of quality.
    But please continue. Sorry to interrupt.
    Mr. Manar. The other thing is, and it is going to come, 
five years down the road, six, eight years, however long it is, 
but it needs to be today. And that is when a veteran walks into 
a hospital and receives treatment, and they are already service 
connected for the condition for which they are being treated, 
the results of that examination, that treatment, should, as 
soon as the doctor hits enter, should automatically drop into 
their VBA record. And if it indicates that they are entitled to 
a higher evaluation, they should be given that. And in the 
rules-based decision-making process, it is certainly possible.
    Mr. Chaffetz. Okay. Let me give Mr. Violante an opportunity 
here.
    Mr. Violante. Thank you, Mr. Chairman.
    If it is only two things, the two things would be better 
training. Because DAV national service officers that have been 
with DAV for a year or 30 years go through continuing training 
their entire career. They are tested. I would like to see VA do 
more of that
    And the second thing would be accountability as it relates 
to quality. Because we don't have that now. The emphasis is on 
production, not on quality. And if, as I said in my testimony, 
if we do it right the first time, we will save a lot of 
problems and a lot of time.
    Mr. Chaffetz. Thank you. And again, I have a hard time 
believing that your service was 40 years ago. I don't know how 
old you were when you started out, I didn't know we were taking 
people at age 6 or so. But I appreciate both of your service.
    [Laughter.]
    Mr. Chaffetz. If I could wave my magic wand, I would 
totally agree with what you said. And I am not nearly as close 
to it as you all here today.
    Somehow, some way, there has to be a better communication 
between the Department of Defense and veterans. The handoff is 
pathetic. And until the Secretaries themselves, personally, 
personally take this under their wing, it will not happen. Our 
military, the American people, we are willing to do and can do 
anything if we have the political will to do it. And I 
recognize it is different.
    But the idea that we have all these different standards, 
that you are not getting the information that you need in a 
format that you can deal with, in this day and age, is just 
totally unacceptable. I think the Department of Defense has a 
lot of questions to also answer in this, because the VA is on 
the receiving end of this, and it is not necessarily in the 
format and the way we can deal with it. It has to be a 
priority. People should be getting stars on their shoulders, 
not just for going out and winning wars, but also taking care 
of the men and women that are under our service.
    So again, I thank you all for your service. Let me yield to 
the gentleman from Massachusetts.
    Mr. Tierney. Thank you very much.
    First of all, I thank all three of you for your testimony 
and your time here today. I think that obviously, production is 
an issue, and quality is an issue. But I think they are 
related, I think all of you recognize that and mentioned that 
you can't really get at the quality issue if everybody is 
leaning so hard trying to catch up on the production end of it. 
I think you have a plan in place trying to do that, and I think 
this is absolutely part of it. The accountability comes with 
that, as does the culture and the attitude situation here. I am 
impressed with the attitude that I hear from all of you. It 
seems to be cooperative, it seems to be willing to point out 
what you think is going wrong without getting nasty and mean 
about it or blaming people for it, and then work together to 
try and address it. And General, you seem to be very interested 
in responding to those things that are pointed out in a 
positive way, not taking it personally or as a negative, and 
moving forward to getting it done. I think that is exactly what 
we need to do.
    Our job is oversight, the Chairman is absolutely right. So 
we don't always come off as probably being as congratulatory as 
we ought to be for when things are going right, because we are 
supposed to be trying to keep the foot on the pedal and keep 
people moving in that direction. But I think occasionally we 
have to acknowledge when things are moving in that direction 
and just still keep our oversight function on there, looking 
for ways into doing the reform.
    This Committee should be proud of itself. We were the 
committee that actually got the ball rolling on sexual assault 
in the modern era here, and then the Armed Services Committee 
picked it up from that. But there were a lot of good women in 
Congress who had bills that weren't getting hearings. And this 
Committee provided the hearings and has been taking it up and 
going into the proper committee for that.
    Walter Reed hearings in this Committee I think started a 
lot of work, particularly about fixing the facilities and 
making sure the people that were transitioning from the 
Department of Defense to VA got more attention. And now we have 
that issue, trying to iron out that transition period on that. 
And I think that is all to the better on that basis.
    So we need to keep working together in this format. Our 
oversight, our reform, your continued work together. Madam 
Secretary, let me just say that if I had one thing that I would 
want to keep constant, it is your involvement in this and your 
attitude and your passion for it. I am impressed. We may come 
to some point where we want to take a different view on that. 
But for all three of you, I think you are doing an excellent 
job in your respective positions and you are working the way, 
professionally and positively, the way we need this to happen. 
I thank you for that, and I think the American public and the 
veterans in particular should be grateful that all of you are 
working so hard, taking this so seriously and thank you.
    Mr. Chaffetz. I thank the gentleman.
    Again, thank you all for your service to this Country. I 
appreciate the hearing today and this Committee now stands 
adjourned.
    [Whereupon, at 11:32 a.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5793.001
    
    [GRAPHIC] [TIFF OMITTED] T5793.002
    
    [GRAPHIC] [TIFF OMITTED] T5793.036
    
    [GRAPHIC] [TIFF OMITTED] T5793.037
    
    [GRAPHIC] [TIFF OMITTED] T5793.038
    
    [GRAPHIC] [TIFF OMITTED] T5793.039
    
    [GRAPHIC] [TIFF OMITTED] T5793.040
    
    [GRAPHIC] [TIFF OMITTED] T5793.041
    
    [GRAPHIC] [TIFF OMITTED] T5793.042
    
    [GRAPHIC] [TIFF OMITTED] T5793.043
    
    [GRAPHIC] [TIFF OMITTED] T5793.044
    
    [GRAPHIC] [TIFF OMITTED] T5793.045
    
    [GRAPHIC] [TIFF OMITTED] T5793.046
    
    [GRAPHIC] [TIFF OMITTED] T5793.047
    
    [GRAPHIC] [TIFF OMITTED] T5793.048
    
    [GRAPHIC] [TIFF OMITTED] T5793.049
    
    [GRAPHIC] [TIFF OMITTED] T5793.050
    
    [GRAPHIC] [TIFF OMITTED] T5793.051
    
    [GRAPHIC] [TIFF OMITTED] T5793.052
    
    [GRAPHIC] [TIFF OMITTED] T5793.053
    
    [GRAPHIC] [TIFF OMITTED] T5793.054
    
    [GRAPHIC] [TIFF OMITTED] T5793.055
    
    [GRAPHIC] [TIFF OMITTED] T5793.056
    
    [GRAPHIC] [TIFF OMITTED] T5793.057
    
    [GRAPHIC] [TIFF OMITTED] T5793.058
    
    [GRAPHIC] [TIFF OMITTED] T5793.059
    
    [GRAPHIC] [TIFF OMITTED] T5793.060
    
    [GRAPHIC] [TIFF OMITTED] T5793.061
    
    [GRAPHIC] [TIFF OMITTED] T5793.062
    
    [GRAPHIC] [TIFF OMITTED] T5793.063
    
    [GRAPHIC] [TIFF OMITTED] T5793.064
    
    [GRAPHIC] [TIFF OMITTED] T5793.065
    
    [GRAPHIC] [TIFF OMITTED] T5793.066
    
    [GRAPHIC] [TIFF OMITTED] T5793.067
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
